           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    CONSULTATIVE EXAMINATIONS
     AT THE INDIANA DISABILITY
      DETERMINATION BUREAU


    March 2011      A-05-10-21061




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      March 1, 2011                                                Refer To:

To:        James F. Martin
           Regional Commissioner
            Chicago

From:      Inspector General

Subject:   Consultative Examinations at the Indiana Disability Determination Bureau
           (A-05-10-21061)


           OBJECTIVE
           Our objectives were to determine whether (1) the Social Security Administration (SSA)
           had issued clear guidelines on suitable language for consultative examination (CE)
           medical opinions and (2) the Indiana Disability Determination Bureau (IN-DDB) had
           effective internal controls to ensure CE reports contained suitable language.

           BACKGROUND
           Disability determinations under SSA’s Disability Insurance and Supplemental Security
           Income programs are performed by the disability determination services (DDS) in each
           State according to Federal regulations.1 In carrying out its obligation, each DDS is
           responsible for determining claimants’ disabilities and ensuring adequate evidence is
           available to support its determinations. DDS employees do not see claimants face-to-
           face; therefore, visual observations are not part of the decision-making process. DDSs
           must rely on relevant medical evidence and related opinions from physicians and
           psychologists to support the disability determination. 2 To assist in making proper
           disability determinations, each DDS is authorized to purchase CEs to supplement




           1
               20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
           2
            SSA, Program Operations Manual System (POMS), DI 24515.002B.2—Evaluating Opinion Evidence –
           Basic Policy states, “Medical opinions are statements from physicians and psychologists or other
           acceptable medical sources that reflect judgments about the nature and severity of a claimant’s
           impairment(s), including symptoms, diagnosis and prognosis, what the claimant can still do despite
           impairment(s), and physical and mental restrictions.”
Page 2 - James F. Martin


evidence obtained from the claimant’s physicians or other treating sources.3 While the
claimant's treating source is the preferred source for medical evidence, the DDS may
obtain the CE from independent medical sources. 4

Complaint from a Former CE Provider

We received a letter, dated August 1, 2009, from a former CE provider who served as
an independent medical source while performing psychological evaluations for the IN-
DDB. 5 The CE provider raised questions about SSA’s CE process and claimed the
Chicago Regional Office (RO) and IN-DDB discouraged the use of certain language as
well as the term “malingering” when stating a medical opinion in a CE report. 6
Malingering is a term used to describe individuals who intentionally pretend to have, or
grossly exaggerate, physical or psychological symptoms for their own gain. 7

To accomplish our objectives, we reviewed formal and informal guidance related to the
CE process and suitable language in CE medical opinions.8 In addition, we interviewed
the former CE provider as well as officials at SSA Headquarters; the Chicago RO in
Chicago, Illinois; the Director of the Chicago RO’s Office of Quality Appraisal and her
staff; and the IN-DDB in Indianapolis, Indiana. We also interviewed an official at the
Office of Disability Adjudication and Review (ODAR) in Indianapolis, Indiana. See
Appendix C for our full scope and methodology.

RESULTS OF REVIEW
SSA Headquarters and the Chicago RO have not issued guidelines on suitable
language for CE medical opinions and use of certain terms, such as malingering, in CE
reports. Although the Chicago RO has preferences regarding suitable language in CE
medical opinions, its expectations have not been formalized. Further, while SSA

3
 SSA, POMS, DI 22505.001B.1—Medical Evidence of Record (MER) Policies. See Appendix B for
guidelines, including detailed information about selecting a treating or independent medical source. In
Fiscal Year (FY) 2009, the IN-DDB purchased 50,273 CEs and paid approximately $10.9 million for these
services.

4
 SSA, Consultative Examinations: A Guide for Health Professionals, Part III, SSA Publication No.64-025,
November 1999, ICN 954095 (also known as the "Green Book").
5
  SSA, POMS, DI 39545.075C.3—Management of the Consultative Examination (CE) Process states a
CE provider is a qualified medical source that performs examinations, tests, and other procedures at the
request of the DDS and agrees to be compensated for these services based on the DDS’ fee schedule.
6
 The focus of this review was the guidance and controls pertaining to suitable language in CE reports.
We met with regional officials separately to discuss specific matters related to the CE provider’s concerns.
7
    The Diagnostic and Statistical Manual of Mental Disorders, Fourth Edition, Text Revision 2000.
8
 In this report, we define “suitable language” as terminology deemed appropriate by the Agency to assist
with disability determinations, while also consistent with the elements of a standard examination in the
applicable medical specialty.
Page 3 - James F. Martin


Headquarters does not encourage DDSs to purchase tests for malingering and the
Chicago RO would like to cease procurement of these tests, the IN-DDB is still
obtaining such tests at the request of administrative law judges (ALJ). As a result, the
Agency is sending CE providers a mixed message. Moreover, because of the lack of
specific guidance on suitable language and specific terms, the IN-DDB had not
established controls to review the appropriateness of language in CE reports. Given the
Chicago RO’s expectations that CE providers adhere to specific guidelines, compliance
would be enhanced through formalized language guidelines, communication of this new
guidance, and periodic monitoring. This additional step would be consistent with prior
studies and recommendations regarding the CE process as well as Headquarters’
current guidance to regions requiring that they evaluate the DDS’ management of the
CE process.

GUIDANCE ON SUITABLE LANGUAGE

Agency guidance encourages CE providers to identify malingering and report
suspicions of malingering to the DDS. 9 However, this guidance does not specifically
address suitable language and the use of certain terms in CE reports. During our
discussions with Headquarters policy officials, we learned that CE providers were
expected to inform the DDS or the Region of malingering by documenting it in their CE
reports.10 SSA policy also states the DDS is required to review all medical evidence,
including CE medical opinions and diagnoses of malingering, to make disability
determinations. 11

Chicago RO officials have a more specific set of expectations. During our interviews,
the Chicago RO officials indicated that CE providers are discouraged from saying an
individual is malingering or diagnosing malingering because a claimant may still have a
valid medical impairment, and the finding of malingering is best based on a review of
the claimant’s entire record, which is not usually available to a CE provider. For
example, the Director of the Center for Disability stated the RO preferred terminology for

9
  SSA, POMS, DI 24515.008F—Title II and XVI: Considering Opinions and Other Evidence from Sources
Who Are Not “Acceptable Medical Sources” in Disability Claims; Considering Decisions on Disability by
Other Governmental and Nongovernmental Agencies (SSR 06-03p) and DDS Administrators’ Letter
Number 496, December 22, 1998 (Headquarters policy officials indicated that this guidance is still
relevant). Headquarters is responsible for maintaining the integrity of the CE process by developing
regulations, disability program policies, and guidelines for use by Federal, State, and private contract
providers.
10
   A complete CE report should include a description and disposition of pertinent "positive" and "negative"
detailed findings based on the history, examination, and laboratory tests related to the major complaint(s),
and any other abnormalities or lack thereof reported or found during examination or laboratory testing.
The consultative medical source will consider, and provide some explanation or comment on, the
claimant's major complaint(s) and any other abnormalities found during the history and examination or
reported from the laboratory tests (see Appendix B).
11
  SSA, POMS, DI 24515.066—Evaluation of Symptoms in Disability Claims: Assessing the Credibility of
an Individual’s Statements (SSR 96-7p). DDSs periodically refer claimant cases to the Office of the
Inspector General for further review when malingering is suspected.
Page 4 - James F. Martin


CE reports raising issues of credibility, 12 including such terms as “inconsistent,”
“conflicting,” “lacking credibility,” and “discrepant” in situations where claimant
allegations during an examination appeared unsupported. Moreover, the Chicago RO
told us they instructed the IN-DDB not to annotate malingering or suspected malingering
on referrals sent to CE providers. However, the Chicago RO did not provide any
evidence that this preferred terminology had been formalized in guidance.

The IN-DDB had an understanding that was more consistent with Headquarters’
expectations. In our telephone interviews with eight medical consultants13 at the
IN-DDB, the majority stated CE providers were expected to opine on credibility, and it
can be appropriate to use the term malingering in CE reports because it is a valid
diagnosis. 14 When asked about this position, the Chicago Regional Medical Advisor
informed us that malingering is more of a condition and not a diagnosis. SSA and
IN-DDB’s conflicting viewpoints regarding the use of the term malingering may lead to
confusion among CE providers. We believe appropriate terminology can assist both the
CE provider and the DDS in assessing the credibility of symptoms and information
provided by the claimant, which is critical to disability determinations.

Tests for Malingering

While SSA Headquarters’ guidance encourages the identification of malingering, it does
not encourage the purchase of malingering tests for mental and psychological
impairments. Under “CE Best Practices,” SSA Headquarters’ guidance15 states, “Do
not purchase CEs that include tests for malingering.” 16 The guidance also states, “. . .
there is no test, when passed or failed, which conclusively determines the presence of
an inaccurate patient self-report.” Related guidance states it is “. . . the observation and
assessment of the claimant when challenged with various tasks, and using multiple

12
  SSA, POMS, DI 24515.066B.2 states the DDS adjudicator must consider the entire case record
including the diagnosis, prognosis, medical opinions, and reports provided by the examining physicians or
psychologists and other medical sources.
13
  SSA, POMS, DI 24515.013A—Consideration of Administrative Findings of Fact by State Agency
Medical and Psychological Consultants and Other Program Physicians and Psychologists at the
Administrative Law Judge and Appeals Council Levels of Administrative Review; Medical Equivalence
(SSR 96-6p) defines medical consultants as highly qualified physicians and psychologists who are
experts in the evaluation of the medical issues in disability claims under the Social Security Act.
14
  SSA, POMS, DI 22510.021B.7—Consultative Examination (CE) Report Content Guidelines–Mental
Disorders states that the diagnosis should include the American Psychiatric Association standard
nomenclature as set forth in the current Diagnostic and Statistical Manual of Mental Disorders.
15
     SSA, Administrative Message (AM)-10109—Consultative Examination Expedients, August 6, 2010.
16
  The medical profession uses a variety of tests that may identify malingering for mental and
psychological impairments, including Malingering Probability Scale, Structured Interview of Reported
Symptoms, Test of Memory Malingering, Validity Indicator Profile, Portland Digit Recognition Test, Rey
Word Recognition List, Rey Fifteen Item Memory Test, and Minnesota Multi-phasic Personality Inventory-
2. Not all these tests were named among the tests that were “not encouraged” in AM-10109.
Page 5 - James F. Martin


records and observations from multiple sources, that allows the clinician to make
meaningful inferences about a claimant, and the likelihood of malingering.” 17

                               Even with guidance that discourages the purchase of tests
 Tests for Malingering         for malingering for mental and psychological impairments,
 Purchased for ODAR            the IN-DDB disclosed that it sometimes purchased tests of
                               malingering for mental and psychological impairment for
cases adjudicated by ODAR. 18 As noted earlier, the Chicago RO would prefer to end
the practice of procuring tests for malingering at the DDSs. An RO official stated that
this inconsistency in practice continues because some ALJs still request these tests as
part of their review of claimant appeals, asserting these tests still have value in
assessing the credibility of symptoms. We confirmed this ODAR practice during our
discussion with the Hearing Office Chief ALJ in Indianapolis, Indiana. We believe the
IN-DDB’s process of allowing tests for malingering for ODAR, while discouraging the
same tests for initial and redetermination cases, sends an inconsistent message to CE
providers about SSA’s position on the appropriateness and usefulness of tests for
malingering for mental and psychological impairments.

We also found the IN-DDB recruiting materials that solicited medical sources capable of
performing psychological tests contained guidance inconsistent with SSA Headquarters
policy. At the time of our review, the IN-DDB’s recruitment materials sought CE
providers with experience in performing tests for malingering for mental and
psychological impairments.19 We noted to Chicago RO management that these
inconsistent guidelines may be confusing for CE providers who are trained to perform
tests of malingering for mental and psychological impairments, and who believe their
skills are needed by the IN-DDB. In response to our concerns, IN-DDB staff informed
us that they updated the recruiting materials given to CE providers and no longer seek
CE providers who can perform the Test of Memory Malingering for mental and
psychological impairments.

INTERNAL CONTROLS

While the RO and IN-DDB conduct quality assurance (QA) reviews, these reviews are
not designed to capture or prevent language issues in CE reports. The Chicago RO’s
Disability Quality Branch (DQB) is required to conduct QA reviews on at least


17
     SSA, National Question and Answer 08-003, January 22, 2008.
18
     The IN-DDB does not purchase these tests for initial and redetermination claims.
19
   As late as December 2009, the IN-DDB recruitment materials given to prospective CE providers to
perform psychological exams and tests included tests of malingering. Some of the tests named in the
recruitment material included Test of Memory Malingering, Rey Fifteen Item Memory Test, and Minnesota
Multi-phasic Personality Inventory-2. For example, some of these tests are forced recognition tests where
the individual is shown a string of digits or geometric patterns, or a pair of pictures or word list, and asked
to memorize it. After a short interval, 2-digit strings or patterns are displayed and the individual being
tested is asked to identify which one of these he or she was just shown.
Page 6 - James F. Martin


50 percent of IN-DDB medical allowances.20 The Director of the Chicago RO’s Office of
Quality Performance indicated that these DQB QA reviews evaluate disability decisions
made by the DDS to determine whether the evidence in the case file supports its
determination based on the Sequential Evaluation Process. 21 However, the CE reports
are viewed as medical evidence in the case file, and the QA guidelines do not include a
review of the suitability of language used in these reports. Moreover, in those cases
where a language issue may come up based on the review of a case file, the DQB did
not maintain information pertaining to the frequency or outcome of these separate
reviews.

                                  IN-DDB also performs QA reviews of the disability
IN-DDB Reviews Reports            cases. For instance, the Quality Assurance Unit at
from CE Providers                 IN-DDB performs an ongoing program review of
                                  decisions, which consist of 20 percent of denied cases
and 5 percent of allowed cases. 22 As with the DQB, this review ensures sufficient
evidence has been provided to support the decision made on the case. However, this
review does not require a review of the language used in the CE report. IN-DDB also
performs a review of the first five CE reports for all new CE providers, and SSA
Headquarters policy suggests DDSs conduct sample QA reviews of CE reports for all
CE providers. However, this policy does not address whether QA reviews should
include a review of language in CE medical opinions.23

As with the DQB process, IN-DDB did not maintain any management information on the
frequency of language problems in CE reports should it be an issue during the QA
review. IN-DDB staff informed us that if there is a question or issue with a CE report, a
medical telephone call is prepared. 24 Although IN-DDB uses the medical telephone call
to document any issues in a CE report, it does not have written procedures for
identifying and reviewing language issues to ensure consistency and clarity. In addition,
this subjective process relies on the personal judgment of IN-DDB staff.




20
  While the review of allowances is mandated by law, the Agency also conducts a nation-wide
discretionary review of denials.
21
   For the determination of disability for adults age 18 or older, a five-step Sequential Evaluation Process
is used. Generally, the five steps include a work test, severity test, listings test, previous work test, and
other work test. For children under age 18 in the SSI program, a three-step process is used.
22
     SSA, POMS, DI 30001.000—DDS Quality Assurance.
23
     SSA, POMS, DI 39545.450A—Independent Consultative Examination (CE) Report Review System.
24
    A medical telephone call is a process used by IN-DDB unit supervisors and medical consultants to
secure clarification on a CE, deficient or missing studies, a final report, or a copy of a CE from a prior
filing.
Page 7 - James F. Martin


FORMALIZED GUIDANCE, COMMUNICATION, AND MONITORING

Given the Chicago Region’s expectations that CE providers adhere to specific—though
undocumented—guidelines, the Region’s requirements could be met through formalized
language guidelines, communication of these guidelines to IN-DDB and CE providers,
and periodic monitoring of CE providers by IN-DDB.




Formalized Guidelines

Formal CE language guidelines could assist the Region in monitoring the quality of CE
reports purchased by IN-DDB. Since the Chicago RO’s preferred terminology has not
been formally documented, the Region cannot be assured its expectations are
communicated to all CE providers and adequately monitored by IN-DDB. Such
clarification has been used to assist components. For example, SSA Headquarters has
issued policy with language guidelines for the DDS to use when preparing a letter to
request the claimant attend a CE appointment. This guidance instructs the DDS to use
terminology the claimant can be expected to understand and provides examples of
words to use and not to use. 25 Given that each individual has his or her own unique
perspective, it would be helpful for CE providers in IN-DDB to know what they can or
cannot say when they believe someone is malingering or submitting a potentially
fraudulent claim.

Training and Communication

Although IN-DDB is responsible for ensuring the quality of CE reports, formal training for
CE providers is not required. Headquarters policy states that DDSs should give all new
CE providers a good understanding of SSA's disability programs, program requirements
for examinations and CE reports, and the CE provider’s role in the CE process.26
Furthermore, Headquarters guidance allows DDSs to determine what training is
necessary for the CE providers. Discussions with IN-DDB disclosed that prospective
CE providers for IN-DDB receive a recruitment package that includes information about
what is expected of a CE provider, including the type of examinations the IN-DDB may
ask them to perform. Moreover, CE providers are given a copy of Consultative
Examinations: A Guide for Health Professionals after they join the panel. However, CE
providers for IN-DDB receive no formal training other than receiving these documents.
Given the potential for confusion regarding CE report language, we believe formal CE
25
     SSA, POMS, DI 22510.018A—Consultative Examination (CE) Appointment Notice Model Letters.
26
  SSA, POMS, DI 39545.400—Ensuring Quality and Integrity of Consultative Examination (CE) Reports.
See Appendix D for a full list of topics that should be covered in DDS training.
Page 8 - James F. Martin


provider training could help reduce the risk of inappropriate language in CE reports.
Such training would also be consistent with earlier concerns about CE training in the
area of malingering and potential fraud.

                                  At the September 1998 National Professional Relations
Physicians Reluctant to Put       Conference, best practices for identifying malingering
Suspicions of Malingering in      were discussed with DDS staff. 27 The best practices
Writing                           centered on training CE providers to identify
                                  malingering and report suspicions of malingering to the
DDS. While SSA encourages CE providers to report their suspicions of malingering to
the DDS, at the Conference, the Professional Relations Officers28 (PRO) stated that
many physicians were reluctant to put their suspicions of malingering in writing because
their medical training does not include a segment on malingering.

The RO also has clear responsibilities to ensure the CE providers have a solid
understanding of SSA’s expectations. SSA Headquarters guidance states that the
Regions are responsible for monitoring the DDS’ efforts for recruiting, training, and
reviewing CE providers. In addition, the Regions are to ensure medical evidence is
supplied by CE providers through effective communication and education. 29 For
example, on January 18, 2002, the San Francisco RO issued a Regional Disability
Insurance Memorandum to all DDS administrators pertaining to the Best CE Oversight
Findings, which recommended holding training seminars/workshops for CE providers to
(1) explain basics about the program, (2) note the need for their evaluations and timely
reports, (3) answer questions, and (4) review good/bad CE report examples.

In addition, a 2008 CE Baseline Study conducted by the Comprehensive Occupational
Medical Services (COMS) 30 for SSA Headquarters recommended SSA develop more
intensive CE provider training methods that demonstrate the types of observations SSA
is seeking in CE reports. The report also recommended training should recur as
necessary to keep CE providers informed of disability program changes. COMS
recommends that SSA’s Office of Training partner with the regions and States to
develop a more formal CE provider training methodology and a defined schedule for
regular follow-up training.



27
  SSA, Policy Instruction, DDS Administrator’s Letter No. 496—Report of the 1998 National Professional
Relations Conference, December 22, 1998.
28
  PROs at the DDSs recruit and train physicians, psychologists, and other health professionals to become
CE providers. They can answer questions about performing CEs or reviewing disability claims for the DDS.
These questions are located online at http://www.ba.ssa.gov/disability/professionals/procontacts.htm.
29
  SSA, POMS, PM 00233.001C—Introduction – Management of the Consultative Examination (CE)
Process.
30
  COMS is a clinical and consultative occupational medicine practice that contracted with SSA to provide
a current, independent assessment of several CE-related activities. The final report for the CE Baseline
Study was issued on April 30, 2008.
Page 9 - James F. Martin


Monitoring

According to SSA Headquarters policy, ROs are responsible for conducting
comprehensive reviews of DDSs to evaluate the States’ management of the CE
process. 31 Headquarters policy also states that ROs will use the Regional Office Guide
for Evaluating DDS Management of the CE Process (RO Guide) to monitor DDS CE
oversight. The RO Guide requires a review of the DDS’ Annual CE Oversight Report to
assist the DDSs in achieving improvements in the CE oversight process. 32 We
discussed the Indiana CE Management/Oversight Reports for FYs 2008 and 2009 with
the Chicago RO and the IN-DDB and found 4 of the 12 elements in the RO Guide were
not addressed in the Indiana report (see Table 1). These missing elements included
(1) DDS QA activities, (2) training and review of new CE providers, (3) CE scheduling
procedures and controls, and (4) integrity of medical evidence.

Table 1: Elements in the Indiana FYs 2008 and 2009 CE Management Oversight Reports
                                                     Elements Included in the
           Elements in the RO Guide             Indiana FY 2008 and 2009 Reports
 DDS QA Activities
 Fee Schedules                                               
 Training and Review of New CE Providers
 CE Scheduling Procedures and Controls
 Integrity of Medical Evidence
 Recruiting Activities                                       
 Claimant Complaints                                         
 Claimant Reactions to Key Providers                         
 List of Key Providers                                       
 Onsite Review of CE Providers1                              
                                  2
 Contracting for Medical Services                         Not Applicable
 Records Maintenance                                         
Note 1: Although the credentials of the CE providers were reviewed in the FY 2008 and 2009 reports, they
did not indicate whether the support personnel were required to be licensed or credentialed.
Note 2: During our discussions with the IN-DDB, we learned that it does not have contracts with the
medical providers.

RO staff noted that IN-DDB prepares the CE Management Oversight Report, which
does not include these four elements. However, the RO is expected to review and
comment on these four elements as part of its oversight duties. We were not provided
with an RO document indicating these four areas were reviewed. The RO’s oversight of
IN-DDB could be improved if the Region used the RO Guide to its full potential. For
31
  20 C.F.R. §§ 404.1519t CE Oversight; SSA, POMS, PM 00233.005—Regional Office (RO)
Consultative Examination (CE) Oversight Procedures states management of the CE process includes the
RO making periodic DDS visits and accompanying the DDS on selected CE provider oversight visits to
key or problem providers, periodic review of CE purchase practices in the DDS, ensuring CE fee
schedules are current, monitoring DDS CE oversight, and periodic reporting of each DDS’ compliance
with the CE policy.
32
  SSA, POMS, PM 00233.005A.4; and POMS, DI 39545.575—Exhibit 2—DDS Annual Consultative
Examination (CE) Oversight Report.
Page 10 - James F. Martin


example, the RO Guide suggests that the ROs describe the method used for periodic
review of CE reports and establish a system to measure the quality of CE reports. In
addition, the RO Guide suggests that the ROs describe the procedures and type of
training for new CE providers and how the quality of training is evaluated.

If the RO formalizes its CE language expectations, the RO could use this process to
ensure the IN-DDB has established the necessary training and controls related to this
new guidance. For instance, the current QA reviews of the first five CE reports
submitted by CE providers could be enhanced to review suitable language and
expanded to a periodic review of CE performance. Under the current guidelines, a CE
provider who meets the CE report criteria today could go decades without a similar
review of submitted reports.

CONCLUSION AND RECOMMENDATION
Our review identified a number of areas where we believe improved guidelines,
communication, and monitoring could help enhance the CE process. SSA has issued
formal and informal CE guidance, but this guidance does not directly address suitable
language for CE medical opinions, such as preferred terminology and the use of certain
words as well as malingering. Although the Chicago RO has clear preferences
regarding suitable language and use of certain terms in CE reports, the Region has not
issued formal or written guidance. As a result, the IN-DDB does not have specific
controls to ensure CE reports contain suitable language.

To ensure the IN-DDB CE reports, as well as other CE reports throughout the Region,
adhere to the RO’s language expectations, we recommend that the Chicago Regional
Commissioner work with SSA Headquarters to establish written policy pertaining to
suitable language in CE reports. Once this written policy has been established, it
should be incorporated, as appropriate, into future regional communications, training,
and monitoring associated with DDSs in the Chicago Region.

In light of the various policies among components in the Chicago Region regarding the
use of tests for malingering for mental and psychological impairments, we will share this
report with responsible Headquarters policy components and encourage greater
clarification on the appropriate use and ordering of these tests.

AGENCY COMMENTS
The Chicago Regional Commissioner deferred our recommendation to the Office of
Disability Programs (ODP) in SSA Headquarters. ODP’s response stated SSA has issued
sufficient policy guidelines relating to CE report content. The Chicago Regional
Commissioner stated the guidance it has issued to the IN-DDB and all DDSs in the
Chicago Region is consistent with the policy guidance from ODP, including CE report
content. The Agency’s comments are included in Appendix F.
Page 11 - James F. Martin


OIG RESPONSE

The Chicago Regional Commissioner has essentially implemented our recommendation
by conferring with ODP. While the Regional Commissioner and ODP believe that the
appropriate policy is in place, we continue to have concerns with implementation of the
policy. To that end, we will continue to monitor how this policy is implemented in the
Chicago Region.




                                        Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – Consultative Examination Guidelines
APPENDIX C – Scope and Methodology
APPENDIX D – Ensuring Quality and Integrity of Consultative Examination Reports
APPENDIX E – Regional Office Guide for Evaluating Disability Determination Services’
             Management of the Consultative Examination Process
APPENDIX F – Agency Comments
APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                           Appendix A

Acronyms

ALJ        Administrative Law Judge
CE         Consultative Examination
C.F.R.     Code of Federal Regulations
COMS       Comprehensive Occupational Medical Services
DDS        Disability Determination Services
DQB        Disability Quality Branch
FY         Fiscal Year
IN-DDB     Indiana Disability Determination Bureau
ODAR       Office of Disability Adjudication and Review
ODP        Office of Disability Programs
OIG        Office of the Inspector General
POMS       Program Operations Manual System
PRO        Professional Relations Officer
QA         Quality Assurance
RO         Regional Office
RO Guide   Regional Office Guide for Evaluation Disability Determination
           Services’ Management of the Consultative Examination Process
SSA        Social Security Administration
                                                                                   Appendix B

Consultative Examination Guidelines
According to the Social Security Administration’s (SSA) consultative examination (CE)
guidelines, 1 if the evidence provided by the claimant's own medical sources is
inadequate to determine whether he or she is disabled, additional medical information
may be sought by recontacting the treating source for additional information or
clarification or by arranging for a CE.

The CE guide also states that the treating source is the preferred source of purchased
examinations when the treating source is qualified, equipped, and willing to perform the
additional examination or tests for the fee schedule payment and generally furnishes
complete and timely reports. Even if only a supplemental test is required, the treating
source is ordinarily the preferred source for this service.

SSA’s rules provide for using an independent medical source (other than the treating
source) for a CE or diagnostic study if:

    •   the treating source prefers not to perform the examination;
    •   there are conflicts or inconsistencies in the file that cannot be resolved by going
        back to the treating source;
    •   the claimant prefers another source and has a good reason for doing so; or
    •   prior experience indicates that the treating source may not be a productive
        source.

The type of examination and/or test(s) purchased depends on the specific additional
evidence needed for adjudication. If an ancillary test (for example, x-rays) will furnish
the additional evidence needed for adjudication, the disability determination services
(DDS) will not request or authorize a more comprehensive examination. If the
examination indicates that additional testing may be warranted, the medical source
must contact the DDS for approval before performing such testing.




1
 SSA, Consultative Examinations: A Guide for Health Professionals, Part III, SSA Publication No.64-025,
November 1999, ICN 954095 (also known as the "Green Book"). The term “qualified” means the medical
source must be currently licensed in the State and have the training and experience to perform the type of
examination or test requested. In addition, the medical source must not be barred from participation in
our programs. The medical source must also have the equipment required to provide an adequate
assessment and record of existence and level of severity of the individual’s alleged impairment(s).


                                                   B-1
Adult Consultative Examination Report Content Guidelines
According to SSA Headquarters guidance, a complete CE for adults is one that involves
all the elements of a standard examination in the applicable medical specialty. 2 When
the report of a complete CE is involved, the report should include the following
elements:

      •    The claimant's major or chief complaint(s).

      •    A detailed description, within the area of specialty of the examination, of the
           history of the major complaint(s).

      •    A description, and disposition, of pertinent "positive" and "negative" detailed
           findings based on the history, examination, and laboratory tests related to the
           major complaint(s), and any other abnormalities or lack thereof reported or found
           during examination or laboratory testing.

      •    Results of laboratory and other tests (for example, x-rays) performed in
           accordance with the requirements provided by the DDS.

      •    Diagnosis and prognosis for the claimant's impairment(s).

      •    Statement about what the claimant can still do despite his or her impairment(s),
           unless the claim is based on statutory blindness. This statement should describe
           the opinion of the consulting medical source about the claimant's ability, despite
           his or her impairment(s), to do work-related activities, such as sitting, standing,
           walking, lifting, carrying, handling objects, hearing, speaking, and traveling and,
           in cases of mental impairment(s), the opinion of the medical source about the
           individual's ability to understand, carry out and remember instructions, and
           respond appropriately to supervision, coworkers, and work pressures in a work
           setting.

      •    The consultative medical source will consider, and provide some explanation or
           comment on, the claimant's major complaint(s) and any other abnormalities
           found during the history and examination or reported from the laboratory tests.
           The history, examination, and evaluation of laboratory test results and their
           conclusions will represent the information provided by the medical source who
           signs the report.




2
    Ibid, Part IV.

                                                B-2
                                                                         Appendix C

Scope and Methodology
To accomplish our objectives, we:
•   Reviewed applicable laws, regulations, and Social Security Administration (SSA)
    policies and procedures pertaining to consultative examinations (CE).
•   Reviewed prior Office of the Inspector General (OIG) and Government
    Accountability Office reports.
•   Interviewed the former CE provider to better understand the concerns with the CE
    process at the Chicago Regional Office (RO) and the Indiana Disability
    Determination Bureau (IN-DDB).
•   Interviewed the Chicago RO officials and the Director of the Office of Quality
    Performance and her staff in Chicago, Illinois, to gain an understanding of (1) the
    Region’s role in the CE process, (2) the types of disability reviews conducted by the
    Disability Quality Branch; (3) the roles and responsibilities of the Regional Medical
    Advisor; and (4) preferred language in CE medical opinions. We also obtained CE
    management information reports as well as copies of guidance, regulations, policies,
    and procedures pertaining to CEs.
•   Interviewed pertinent officials and medical consultants at the IN-DDB in Indianapolis,
    Indiana, to gain an understanding of (1) the CE process at the IN-DDB; (2) quality
    reviews performed on CE reports; (3) CE provider training; (4) the process for
    activating and inactivating CE providers; (5) the complaint resolution procedures;
    and (6) guidelines and other information CE providers are given and expected to
    follow;
•   Interviewed a Hearing Office Chief Administrative Law Judge in the Indianapolis,
    Indiana, Hearing Office and discussed the hearing office’s experiences with the CE
    process.
•   Interviewed officials and staff from the Office of Retirement and Disability Policy in
    Headquarters to assist in interpreting SSA policy and procedures.
•   Discussed issues pertaining to the CE provider’s specific concerns with RO officials.

We performed our audit at SSA’s RO in Chicago, Illinois; the IN-DDB, in Indianapolis,
Indiana; and the OIG Office of Audit in Chicago, Illinois, between November 2009 and
June 2010. Although we reviewed CE reports, our review did not attempt to measure
the quality of CE reports. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.
                                                                            Appendix D

Ensuring Quality and Integrity of Consultative
Examination Reports
Social Security Administration (SSA) consultative examination (CE) guidelines state that
CE providers should receive training on how to prepare a quality CE report. 1 This
guidance also states that a quality CE report contains all the information relevant to the
examination and the tests that were authorized and includes accurate information.
Moreover, disability determination services (DDS) should establish policy guidelines for
CE provider training, review of CE reports, and integrity issues to ensure the quality of
CE reports. Specifically, DDS training for CE providers should cover the following
topics:

•   Certification requirements for becoming a CE provider and retaining CE provider
    status with the DDS.
•   Overview of SSA disability programs and regulations.
•   Basic operations of the disability determination function, including DDS management
    of the CE process.
•   Elements of a complete CE.
•   CE report content and reporting requirements.
•   Sending CEs via fax, the Electronic Records Express Website, or other SSA-
    approved secure electronic communication methods.
•   Security of electronic information and Health Insurance Portability and Accountability
    Act of 1996 compliance of the SSA-827 (Authorization to Disclose Information to
    Social Security Administration).
•   Periodic DDS on-site visits to volume providers or certain CE providers when
    complaints or other circumstances indicate the need.
•   Fee schedule structure.
•   Periodic satisfaction surveys of claimants about their CE.
•   Confidentiality and disclosure of medical information.




1
 SSA, Program Operations Manual System, DI 39545.400—Ensuring Quality and Integrity of
Consultative Examination (CE) Reports.
                                                                                  Appendix E

Regional Office Guide for Evaluating Disability
Determination Services’ Management of the
Consultative Examination Process
Social Security Administration (SSA) Headquarters policy states regional offices (RO)
are responsible for monitoring disability determination services’ (DDS) consultative
examination (CE) oversight. Moreover, Headquarters guidance states that the Regional
Office Guide for Evaluating Disability Determination Service Management of the
Consultative Examination Process (RO Guide) will be used to evaluate the DDS’ CE
oversight management procedures. 1 Specifically, RO oversight should cover the
following 12 elements: (1) DDS Quality Assurance (QA) Activities, (2) Fee Schedules,
(3) Training and Review of New CE Providers, (4) CE Scheduling Procedures and
Controls, (5) Integrity of Medical Evidence, (6) Recruiting Activities, (7) Claimant
Complaints, (8) Claimant Reactions to Key Providers, (9) List of Key Providers,
(10) Onsite Review of CE Providers, (11) Contracting for Medical Services, 2 and
(12) Records Maintenance.

The Indiana CE Management/Oversight Reports for FYs 2008 and 2009 did not address
4 of the 12 elements: (1) DDS QA Activities, (2) Training and Review of New CE
Providers, (3) CE Scheduling Procedures and Controls, and (4) Integrity of Medical
Evidence. Each of these areas has specific questions, as follows.

DDS QA Activities in the CE Process:

1. Does the DDS QA unit assure that only necessary CEs are ordered when reviewing
   CE reports for quality?
    What other areas does the QA unit cover to monitor the DDS’ purchase of medical
    evidence?

2. Describe the method used for periodic review of CE reports.

    a. Has the DDS established a system to assure the quality of CE reports? What
       review criteria are used? How and by whom are review results evaluated?

1
 SSA, Program Operations Manual System (POMS), PM 00233.900 —Exhibit 1- Regional Office (RO)
Guide for Evaluating Disability Determination Service (DDS) Management of the Consultative
Examination (CE) Process.
2
 SSA, POMS, DI 39542.205C.1—Contracting for Medical Provider Services-DDS states the DDSs may
contract with medical providers for CEs. During our discussions with the IN-DDB, we learned that it does
not have contracts with the medical providers.


                                                  E-1
   b. If the CE report is inadequate or incomplete, how is this information conveyed to
      the provider?
          Is the provider asked to provide the necessary information previously
          omitted?
   c. What is the DDS policy for handling CE providers who continue to submit CE
      reports of unacceptable quality?

3. Describe the selection process for reviewing CE reports under the Independent CE
   Report Review System.

Training and Review of New CE Providers:
Describe the procedures for the training and review of new CE providers. (Obtain a
copy of the training outline or other materials given to new providers.)

   Training:
      • What type of training is provided?
      • Who conducts it?
      • What training materials are furnished?
      • How is the quality of training evaluated?
      • Are CE providers encouraged to submit reports electronically?

   Review of New Providers:
     • What type of review is done? (Describe frequency, duration, method of
        sampling, and how data is collected.)
     • Who conducts the review?
     • Are the providers given feedback on results of the reviews?

CE Scheduling Procedures and Controls:
1. Are CE scheduling procedures and controls designed to attain a good distribution of
   examinations and to prevent overscheduling?

2. Does the CE authorization process:
      a. Establish procedures for medical or supervisory approval of CE requests as
         required in regulations?
      b. Include a medical review of CEs that order diagnostic tests or procedures that
          may involve significant risk to the claimant/beneficiary?




                                          E-2
3. How is the determination made as to which CE provider will be used? What
   consideration is given to the quality of prior CE reports? What measures are taken
   to ensure that each CE provider on the panel is given an equitable number of
   referrals?

4. Is the treating source used as the preferred source of the CE as required in
   regulations?

5. If the treating source is not used for the CE, is the reason properly documented in
   the claims file on the case development summary?

6. Are medical source statements requested?

7. Are copies of the background material in the claims file sent to the CE source for
   review prior to the CE?

8. Is the DDS following the guides on CE scheduling intervals? If not, what
   precautions, if any, are taken to prevent overscheduling?

9. No Shows/Cancellations

      a. What follow-up procedures are followed to ensure the CE appointment is
         kept? Does the DDS remind the claimant of the CE several days before the
         examination?
      b. Is the DDS notified that the appointment has not been kept?
      c. What is the rate of no-shows? Of cancellations? Are either paid for? If so,
         provide a complete description of the payment policy.
      d. In States that pay for “no-shows,” what steps are they taking to move toward
          a no-pay policy?

Integrity of Medical Evidence:
1. Are claimant identification controls in place and being used?

2. Are the numbers of vouchers for purchased medical evidence being checked against
   the actual number of pieces of purchased medical evidence in file to ensure that all
   evidence is in file?




                                           E-3
3. Is hand-delivered evidence reviewed to assess its authenticity?

      a. If the CE report is inadequate or incomplete, how is this information conveyed
         to the provider?
             Is the provider asked to provide the necessary information
             previously omitted?
      b. What is the DDS policy for handling CE providers who continue to
         submit CE reports of unacceptable quality?

4. Describe the selection process for reviewing CE reports under the Independent CE
   Report Review System.




                                          E-4
                  Appendix F

Agency Comments
(Note: The Chicago Region also provided technical comments, which we incorporated into the report, as
appropriate.)


                                                 F-1
                                  SOCIAL SECURITY
          Office of the Deputy Commissioner for Retirement and Disability Policy

                                           WR#

                      RESPONSE TO REQUEST FOR COMMENTS:

Office of the Inspector General Final Report (OIG Job Number: A-05-10-21061), "CEs at
              the Indiana Disability Determination Bureau” Audit #22010012

The audit report contains one recommendation:

To ensure the Indiana DDB CE reports, as well as other CE reports throughout the region
adhere to the RO’s language expectations, we recommend that the Chicago Regional
Commissioner work with SSA Headquarters to establish written policy pertaining to
suitable language in CE reports. Once this written policy has been established, it should be
incorporated, as appropriate, into future regional communications, training, and monitoring
associated with DDSs in the Chicago Region.

ODP Response: We disagree. SSA has issued sufficient policy guidelines relating to CE
report content. Our regulations require that, in making determinations of disability, we
evaluate “…objective medical evidence, that is, medical signs and laboratory findings and
other evidence from medical sources such as medical history, opinions and statements
about treatment you have received…” (20 CFR 404.1512 Evidence). In addition, our
regulations provide that a claimant may refuse to attend a CE if the provider “lacks
objectivity” and the State agency is required to “review the allegations.” (20 CFR
404.1519j)

We believe that the Indiana DDB acted appropriately when they counseled this provider
concerning his use of unprofessional, non-objective language and failure to provide
information missing in his CE reports. Further, we believe that the DDB acted
appropriately by removing this provider from their panel after he refused to comply with
these instructions.

ODP met with the auditors on two separate occasions, and issued two responses to answer
specific policy questions, in an effort to provide clarity concerning our policies. Our
technical comments on the audit report language are attached.

Thank you for the opportunity to comment on this report.




                                            F-2
Technical Comments for OIG Audit#22010012, CEs at the Indiana
Disability Determination Bureau.


General:

SSA’s position on requesting testing devices for malingering is that it does not believe
that such devices are appropriate for purchase within the CE context. The guidance in
Q&A 08-003 makes clear that there is no “gold standard” for establishing symptom
validity and that malingering cannot be proven with tests. This Q&A goes on to state
that it is the observation and assessment of the claimant when challenged with various
tasks, and using multiple records and observations from multiple sources, that allow the
clinician to make meaningful inferences about a claimant, and the likelihood of
malingering. It is also states that it is important to understand that malingering is one
aspect of the larger sphere of inaccurate self-report. Dissemblance in symptoms and
behavior is not limited to malingering, but can be seen in individuals who over or under-
report the nature, range and severity of symptoms because of a psychiatric disease or
underlying personality trait. Even in claims where the evidence indicates a high
probability of malingering, we are still required by law to proceed through the complete
sequential evaluation. The claimant who is likely malingering may still have a genuine
impairment, and has now made it much more difficult to distinguish the functionally
limiting effects of the impairment from evidence that is fabricated or exaggerated. Yet
that is exactly what the adjudicator must do. Even a high likelihood of malingering does
not preclude severe limitations resulting from a genuine medically determinable
impairment (MDI).

Additionally, the availability and consistency of symptom validity tests from state to state
would be problematic. These expensive testing devices would not be worth the expense
to the disability program.

(Note: ODP provided comments on the CE provider who wrote to the OIG, even though this was not the
focus of this report. We met with regional officials separately to discuss specific matters related to the CE
provider’s concerns. ODP also provided technical comments, which we incorporated into the report, as
appropriate.)




                                                    F-3
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Chicago Audit Division

   Annette Dunn, Audit Manager, Chicago Office

Acknowledgments

In addition to those named above:

   Lorrie Clement, Senior Auditor

   Linda Smid, Auditor-in-Charge

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-05-10-21061.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
